HHS/OIG, Audit -"Review of Kansas's Accounts Receivable System for Medicaid Provider Overpayments,"(A-07-04-03060)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Kansas's Accounts Receivable System for Medicaid Provider Overpayments," (A-07-04-03060)
January 12, 2005
Complete
Text of Report is available in PDF format (302 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if the State agency reported Medicaid provider overpayments according to
Federal regulations.  The State agency did not report all Medicaid provider overpayments in accordance with Federal
regulations and its policies and procedures were not sufficient to ensure the timely reporting of all overpayments.  As
a result, the State agency delayed returning overpayments totaling $2,395,384 ($1,478,950 Federal share).  Of that
amount, the State agency has not yet reported or returned to the Federal Government overpayments totaling $858,669 ($537,210
Federal share).  We recommended the State agency should return the Federal share of overpayments totaling $537,210
to the Federal Government as soon as possible and strengthen policies and procedures to ensure all overpayments are reported
in accordance with Federal regulations.  The State agency agreed with our findings and recommendations.